DOE/IG-0474




        AUDIT
       REPORT



                                 EXPERIMENTAL BREEDER REACTOR II
                                      TERMINATION ACTIVITIES




                                                JUNE 2000




    U.S. DEPARTMENT OF ENERGY
   OFFICE OF INSPECTOR GENERAL
     OFFICE OF AUDIT SERVICES
                                               June 27, 2000

MEMORANDUM FOR THE SECRETARY


FROM:        Gregory H. Friedman (Signed)
             Inspector General


SUBJECT: INFORMATION: Audit Report on "Experimental Breeder Reactor II Termination Activities"


BACKGROUND

In February 1994, Congress directed that the Department of Energy immediately terminate its Advanced
Liquid Metal Reactor Program (Reactor Program) and close the Experimental Breeder Reactor II (EBR II).
The Reactor Program was a scientific effort to test and develop advanced nuclear reactor technology using
EBR II. The Reactor Program and EBR II are located at the Argonne National Laboratory-West site in
Idaho. The Office of Nuclear Energy, Science and Technology (Nuclear Energy), is the Headquarters
program office responsible for this effort. To date, the Department has provided about $444 million for
termination activities, of which about $55 million has been spent specifically on EBR II closure. The
objective of the audit was to determine whether the Department and Nuclear Energy had taken action to
achieve the expeditious closure of EBR II.

RESULTS OF AUDIT

In the six years that have elapsed since the Department was directed to close EBR II, Nuclear Energy has
not taken appropriate action to achieve this objective. The audit disclosed that Nuclear Energy did not
prioritize funding, mandate the use of project management principles or properly evaluate the performance
of EBR II closure activities. Specifically, Nuclear Energy did not set funding priorities in its program
guidance to Argonne, but instead provided lump sum funding for the major activities occurring at the
Argonne site. Also, until December 1999, Nuclear Energy had not required Argonne to implement
established project management practices to control, monitor and report the scope, progress, cost and results
of work performed for EBR II closure activities. For example, Argonne was not required to prepare or use
resource loaded, task oriented baseline schedules; a baseline change control process; or cost variance
reports for EBR II closure activities. Further, Nuclear Energy had not required Argonne to conduct
additional quality assurance tests of the waste associated with the EBR II. Subsequently, the waste was
found not to have met the specifications for appropriate disposal, requiring additional testing of the waste,
and ultimately, the reprocessing of 60 barrels of sodium waste which has increased project costs by
approximately $1.5 million. As a result of these deficiencies, the effectiveness and efficiency of the EBR II
closure activities could not readily be evaluated.

The report included a series of recommendations designed to ensure that the EBR II is closed promptly and
efficiently. Due to the size, complexity and cost of the closure effort, one of our primary recommendations
was that the EBR II's termination process be managed using the Department's formal project management
principles.

MANAGEMENT REACTION

Management generally agreed with the audit findings. However, Department officials responding to a draft
of this report did not agree with our position that the closure of EBR II should have been managed using
project management principles. Nonetheless, management informed us that they had initiated corrective
                                                  -2-


actions to incorporate project management principles. Management's reaction to the recommendations and
the position of the Office of Inspector General are more fully described in the report itself.

Attachment

cc:    Deputy Secretary
       Under Secretary
EXPERIMENTAL BREEDER REACTOR II TERMINATION ACTIVITIES

TABLE OF
CONTENTS



                Overview

                Introduction and Objective .........................................................1

                Conclusions and Observations...............................................… 2


                Management of Termination Activities

                Details of Finding .......................................................................3

                Recommendations and Comments ...........................................8


                Appendix

                Scope and Methodology...........................................................12
OVERVIEW
INTRODUCTION AND
OBJECTIVE          The Office of Nuclear Energy, Science and Technology (Nuclear
                   Energy) provides funding and program guidance1 to the Chicago
                   Operations Office for the Argonne National Laboratory-West (Argonne
                   West) site in Southeastern Idaho. The Argonne West site, among other
                   activities, supported the Advanced Liquid Metal Reactor program. The
                   Advanced Liquid Metal Reactor program was a scientific effort to test
                   and develop advanced nuclear reactor technology using the
                   Experimental Breeder Reactor II (EBR II).

                   In February 1994, Congress directed the Department of Energy to
                   immediately terminate the Advanced Liquid Metal Reactor program at
                   Argonne West. Congressional direction identified its expectation that
                   the program, which consisted mainly of the EBR II, be terminated "as
                   soon as possible." Beginning in Fiscal Year (FY) 1995, Nuclear
                   Energy provided funding to Argonne West under the title of
                   "Termination Costs," and subsequently "Termination Activities".
                   These titles were misleading because in addition to the EBR II closure
                   activities, the "Termination" funding was also intended and used for
                   maintaining the infrastructure of the Argonne West site, and for a
                   Research & Development (R&D) demonstration project for the
                   processing of sodium bonded fuel. However, Nuclear Energy has
                   requested a change in this title in its FY 2001 budget request. To date,
                   Nuclear Energy has provided approximately $444 million to Argonne
                   West for these activities. Based on input from Argonne West, Nuclear
                   Energy estimates that approximately $55 million of the $444 million
                   has been provided for EBR II closure activities.

                   The objective of the EBR II closure activities was to shut down, defuel,
                   and place EBR II in an industrially, radiologically, and environmentally
                   safe and stable state that would require minimal surveillance prior to
                   eventual decontamination and decommissioning. Specific tasks
                   included defueling the reactor as well as draining, processing and
                   disposal of the sodium coolant. In December 1996, Argonne West
                   successfully completed the defueling of the EBR II reactor. Although
                   not approved by Nuclear Energy, Argonne West's original anticipated
                   completion date for EBR II closure was September 1998. In an
                   approved project plan dated December 1998, Argonne West revised this
                   completion date to January 2002. Currently, Argonne West estimates
                   that the EBR II closure activities will be completed in March 2002.
                   1
                       Program guidance is the direction provided from each of the Department's Program
                       Managers to the Operations Office responsible for the Management & Operating
                       contractor that identifies to the contractor the work to be performed, performance
                       expectations, measurements and other pertinent information such as funding
                       limitations or allocations.

Page 1                                                                  Introduction and Objective
                  A previous Office of Inspector General audit titled the Follow-Up Audit
                  of Program Administration by the Office of Science (DOE/IG-0457)
                  assessed R&D activities that were funded and managed similar to the
                  EBR II termination. That report indicated that the Office of Science did
                  not use objective measures of performance, such as milestones, and the
                  Department relied upon annual performance reviews by its program
                  managers in the evaluation of R&D projects. More intense
                  management practices were perceived to limit flexibility and inhibit
                  creativity.

                  The objective of the audit was to determine whether Nuclear Energy
                  had taken action to achieve the expeditious closure of the EBR II.


CONCLUSIONS AND   Although directed by Congress to terminate the Advance Liquid Metal
OBSERVATIONS      Reactor program and close the EBR II, Nuclear Energy has not taken
                  appropriate actions, over the six years of the project, to achieve the
                  expeditious closure of the EBR II. Specifically, Nuclear Energy did not
                  approve the Project Management Plans submitted by Argonne West
                  until December 1998, require Argonne West to track costs by activity,
                  or require additional testing in Argonne West's Quality Assurance
                  process. Instead Nuclear Energy funded, managed, and evaluated the
                  EBR II work as a research activity, rather than a project for closure
                  activities. As a result, Nuclear Energy has little assurance that the work
                  performed, and the costs incurred to date by Argonne West will achieve
                  the timely and efficient closure of EBR II.

                  The audit identified issues that management should consider when
                  preparing its yearend assurance memorandum on internal controls.




                                                                (Signed)

                                                        Office of Inspector General




Page 2
                                                      Conclusions and Observations
MANAGEMENT OF TERMINATION ACTIVITIES
Department Actions   Over the six years of the project, Nuclear Energy did not take
                     appropriate actions to achieve the expeditious closure of EBR II.
                     Specifically, Nuclear Energy did not approve the Project Management
                     Plans submitted by Argonne West until December 1998, require
                     Argonne West to track costs by termination activity, or require
                     additional testing in Argonne West's Quality Assurance (QA) process
                     for EBR II closure activities.

                     At Nuclear Energy's request, Argonne West prepared and submitted
                     numerous project management and termination plans. However,
                     Nuclear Energy did not approve any of the plans for implementation
                     until December 1998. Argonne West had submitted a project
                     management plan as early as July 1995 that identified the appropriate
                     project management principles and controls for the EBR II closure.
                     Included in the plan was an explanation of the work to be
                     accomplished, the quality assurance techniques to ensure success of the
                     work, and controls to evaluate the efficiency in meeting both cost and
                     schedule expectations. However, Nuclear Energy did not approve the
                     plan and Argonne West did not apply the project management
                     principles contained in that plan. In fact, from February 1995 to May
                     1998, Argonne West submitted, at Nuclear Energy's request, a total of
                     two project management plans and four termination plans without
                     receiving written approval or direction from Nuclear Energy for their
                     application.

                     Nuclear Energy officials acknowledge that they did not provide
                     Argonne West with written approvals or written direction to implement
                     the plans. However, Nuclear Energy officials stated that they
                     coordinated program objectives, schedules and scope within the
                     Department and with Congress at least once a year and with Argonne
                     West more frequently through meetings, teleconferences, and video
                     conferences. Nuclear Energy officials also stated that they verbally
                     directed Argonne West to implement the approved December 1998 plan
                     that was submitted and briefed to Congress in April 1999 by both
                     Nuclear Energy and Argonne West management.

                     In addition to not formally approving project or termination plans,
                     Nuclear Energy did not require Argonne West to track costs by activity.
                     In fact, Argonne West did not maintain budgets nor accumulate costs
                     for the EBR II closure activities. The accounting system at Argonne
                     West accumulated and reported costs based on the organizational
                     structure of the laboratory, not the unique activities, such as those
                     associated with EBR II. Consequently, Argonne West was able to
                     provide the Office of Inspector General with cost data by organization;
                     however, cost data by activity was not readily available.
Page 3                                                                   Details of Finding
                     Also, Nuclear Energy did not require Argonne West to include
                     additional testing in its QA process to ensure that the waste products
                     associated with EBR II closure activities met waste disposal
                     specifications. According to Nuclear Energy officials, Argonne West
                     conducted QA testing to verify the chemistry basis of the treatment
                     process, and performed the legally required QA sampling of the waste
                     products. However, this sampling proved to be insufficient for this
                     "first of a kind" treatment process. In the absence of sufficient QA
                     testing, 942 barrels of sodium waste were processed in FY 1999 until
                     Argonne West inadvertently discovered that the sodium waste did not
                     meet the specifications for disposal. Once this problem was discovered,
                     the 942 barrels had to be tested to determine the extent of the
                     "unacceptable" waste. Upon completion of the testing, approximately
                     60 barrels had to be reprocessed in order to meet the disposal
                     specifications identified for the waste.

                     Subsequent to the discovery of unacceptable waste, Nuclear Energy
                     directed Argonne West to engage the services of outside consultants to
                     provide independent review and assistance to the laboratory regarding
                     the technical basis and operating parameters of the treatment process,
                     project management and quality assurance. Nuclear Energy also
                     directed Argonne West to revise its QA process to include 100 percent
                     testing to evaluate whether the waste is within the specified parameters
                     for disposal.

Project Management   The decision to terminate the Advanced Liquid Metal Reactor program
Requirements         was ordered by the 103rd Congress in its congressional record of
                     February 22, 1994. In that decision, Congress directed that "the
                     Secretary of Energy shall take such actions as are necessary to
                     terminate, as soon as possible, the advanced liquid metal reactor
                     program of the Department of Energy."

                     The directives for the application of project management principles
                     were initially established by DOE Order 4700.1, Project Management
                     Systems, and subsequently in DOE Order 430.1A, Life Cycle Asset
                     Management. The project management system assures the application
                     of sound management principles to provide a disciplined, systematic
                     and coordinated approach to project management resulting in efficient
                     planning, organization, coordination, budgeting, management, review,
                     and control of Departmental projects.

                     The project management system fosters the concept of baseline
                     management, accountability and performance assessment while
                     providing a basis for determining priorities among programs and


Page 4                                                                    Details of Finding
                     relating these priorities to resource availability. The project
                     management plan is used to document the plans, organization and
                     systems that will be utilized for the project. Inherent in the project
                     management plan is a description of the management structure to be
                     utilized, and the controls to be applied to evaluate the work and
                     measure progress and performance. Specifically, the system uses
                     baseline change controls, testing and evaluation, and cost and schedule
                     monitoring controls to ensure the direction, results and efficiency of the
                     work.

Lack of Management   Nuclear Energy funded, managed, and evaluated the EBR II closure
Controls             activities as a Research & Development (R&D) activity instead of
                     directing these activities as a project. Specifically, Nuclear Energy did
                     not prioritize funding, mandate the use of project management
                     techniques, or properly evaluate the performance of EBR II closure
                     activities.

                                                      Funding

                     Even with Congress' decision to close EBR II, Nuclear Energy's
                     program guidance continued to provide lump sum funding for major
                     activities occurring at the Argonne West site without establishing well
                     defined funding priorities for the EBR II closure. The program
                     guidance provided by Nuclear Energy to the Chicago Operations Office
                     for Argonne West aggregated the termination activities under the same
                     umbrella work plan, and funded the activities from a lump sum dollar
                     amount. However, the program guidance should have focused on the
                     priority of the EBR II closure by specifying the amount of funds
                     provided for that activity. While aggregation and lump sum funding of
                     R&D activities is common in Departmental program guidance, it is not
                     appropriate to group unrelated activities, such as R&D with work that
                     requires application of project management principles.

                     For FY 1995 through FY 1999, Nuclear Energy did not set funding
                     priorities in its program guidance and allowed Argonne West to allocate
                     funds based upon its preferences. Nuclear Energy provided funding to
                     Argonne West for termination activities without specifying the amounts
                     to be allocated to the EBR II closure. As a result, Nuclear Energy
                     direction did not reflect the priority established by the Congressional
                     decision and informally delegated the responsibility for funds allocation
                     to Argonne West.




Page 5                                                                     Details of Finding
                                   Project Management

         Additionally, Nuclear Energy did not require Argonne West to manage
         the EBR II closure activities as a project, even though the conditions
         were appropriate for the application of project management principles
         to control, monitor and report the scope, progress, cost and results of
         the work performed. For example, Nuclear Energy did not require
         Argonne West to prepare or use resource-loaded, task-oriented baseline
         schedules, a baseline change control process, or cost variance reports
         for EBR II closure activities. In addition, the cost accounting system
         used at Argonne West accumulated actual costs by organizational
         element and could not easily identify costs incurred for the EBR II
         termination activities. Argonne West could not project the budgeted
         costs, nor identify the actual costs of the EBR II termination activities.

         In December 1999, Nuclear Energy made the decision to require
         Argonne West to submit baselines, work breakdown structures, and
         establish budgeted costs for the EBR II closure activities. Additionally
         in its FY 2000 supplemental program guidance dated March 2000,
         Nuclear Energy prioritized the activities to be accomplished; however,
         Nuclear Energy's supplemental program guidance still did not identify
         how the funds should be allocated among the EBR II termination
         activities. With Nuclear Energy's decision, Argonne West has realigned
         their cost accounting system to track costs based upon the specific
         activities. By taking these actions, project management principles have
         been established to allow for concurrent evaluation of the work, which
         can be expressed in terms of cost and schedule variances.

                                 Performance Evaluation

         Nuclear Energy did not implement the proper methodology to evaluate
         Argonne West's performance of the EBR II closure. Instead, Nuclear
         Energy evaluated the EBR II closure activities as an R&D activity.
         R&D activities are evaluated through program manager reviews, which
         are subjective in nature. Individual R&D activities are assessed and
         compiled to obtain a rating for each program. Each program rating is
         then compiled to determine the overall rating of the laboratory. This
         contrasts with project evaluations, which use objective measures, such
         as milestones and variance reports, to evaluate the progress of the
         project. This type of evaluation places accountability upon the
         contractor to meet schedule, cost and technical milestones.
         Further, all the performance measures in the Presidential Performance




Page 6                                                         Details of Finding
              Agreements with the Secretary of Energy were not included in the
              program guidance for EBR II closure activities. Two performance
              measures were either not included as performance measures in program
              guidance or were altered. Specifically, the Department of Energy's
              (Department) FY 1997 Presidential Performance Agreement required
              the conversion of 30,000 gallons of Fermi I sodium into sodium
              carbonate by September 1997. However, this milestone was omitted
              from the program guidance. As a result, this measure was not used to
              identify unsuccessful performance when Argonne West was unable to
              convert the 30,000 gallons of Fermi I sodium.

              Also, the Department's FY 1999 Presidential Performance Agreement
              included a performance target to "complete the conversion and
              disposition of 100 percent of the secondary sodium coolant from the
              Experimental Breeder Reactor II." However in the FY 1999 program
              guidance, the performance measure applied by Nuclear Energy required
              only the completion of the sodium processing and did not mention
              completing the sodium disposition. Delays in the disposition of the
              sodium, which may have been identified by additional testing, were not
              in the evaluation of performance because it was never established as a
              performance measure. Therefore, unsuccessful performance may not
              result in unsatisfactory ratings, or impact the incentive fees paid to
              Argonne National Laboratory.

Delay of      Nuclear Energy has little assurance that the work performed, and the
Termination   costs incurred to date by Argonne West will achieve the timely and
              efficient closure of EBR II. Nuclear Energy could not compare the
              EBR II closure budgeted performance to actual performance due to the
              absence of an approved schedule and budget, and an accounting system
              capable of identifying and reporting costs. Because of these
              deficiencies, the timeliness, and actual costs of the work performed by
              Argonne West for the EBR II closure could not be quantified. Further,
              these deficiencies prevented the evaluation of the efficiency and
              effectiveness of the activity. Since the December 1998 plan approved
              by Nuclear Energy, the EBR II closure schedule has slipped
              approximately 2 months and the sodium processing delay has increased
              project costs approximately $1.5 million.

              Furthermore, schedule slippage of the EBR II closure activities is not
              reflected in Argonne National Laboratory's overall performance ratings.
              For example, in FY 1998 and FY 1999 the Nuclear Energy program at
              Argonne West received the lower ratings of "Excellent" yet Argonne
              National Laboratory's overall rating for its Science & Technology
              program remained at "Outstanding."


Page 7                                                            Details of Finding
                  Despite the opportunity to apply objective measures as endorsed by the
                  Government Performance and Results Act of 1993, Nuclear Energy
                  used the subjective evaluations of its program managers that did not
                  appear to adversely affect the Argonne National Laboratory overall
                  ratings or fee, even though performance in one particular area was
                  clearly unacceptable.

                  Nuclear Energy officials stated that the methodology used to evaluate
                  Argonne West's performance was established by the laboratory's Lead
                  Program Secretarial Officer (Office of Science) which primarily funds
                  R&D activities. Also, that the Office of Science weighs the ratings by
                  all Program Secretarial Officers according to organizational funding
                  levels. Nuclear Energy stated that its low comparative funding levels
                  reduces the impact of Nuclear Energy's rating on the laboratory's
                  overall rating and performance fee. However, Nuclear Energy stated
                  that they are working with the Office of Science and the Chicago
                  Operations Office to change the performance evaluation approach so
                  that Nuclear Energy's ratings will carry more impact on the laboratory's
                  overall ratings.


RECOMMENDATIONS   We recommend that the Director of the Office of Nuclear Energy,
                  Science, and Technology:

                  1. Take actions necessary to ensure that the EBR II is closed "as soon
                     as possible."

                  2. Evaluate activities funded through the program and immediately
                     apply the project management principles contained in DOE Order
                     430.1A Life Cycle Asset Management when appropriate.

                  3. Take action to identify the amount of funds to be allocated to each
                     of the distinct activities funded through the "Termination Costs":
                     EBR II closure activities, R&D demonstration project, and site
                     infrastructure.

                  4. Establish objective measures of performance and include
                     presidential performance measures for the EBR II closure activities
                     for use in evaluating contractor performance.

                  5. Continue to work with the Office of Science to modify the current
                     performance ratings system for EBR II closure activities.



Page 8                                             Recommendations and Comments
MANAGEMENT   Management generally agreed with the finding and embraced all actions
REACTION     recommended in the report. In responding to the report, management
             recognized that some of its practices in past years were deficient in
             certain areas. For example, plans submitted in the first several years of
             the project were not formally approved. However, management stated
             that its approach has changed and is evidenced with the approval of the
             EBR II Closure Plan in December 1998. Management stated that the
             recommended actions are appropriate and that many of the actions
             necessary to correct the deficiencies noted were already in process prior
             to the audit being conducted. Since management has already begun to
             implement many of the corrective actions, management believes that
             the appropriate recommendation would be for Nuclear Energy to
             continue on its current path.

             Although management agreed with the finding and recommendations,
             they had a basic disagreement with one Office of Inspector General
             position presented in the audit report. Management does not agree that
             it would have been more appropriate to manage the development work
             associated with sodium processing as a project rather than as a research
             and development (R&D) activity. Prior to the current fiscal year,
             critical-path elements of the EBR II closure activity were principally
             R&D and were appropriately managed as such. The EBR II Closure
             project consists of removal of the spent nuclear fuel, removal and
             disposition of sodium coolant, and facility closure. Included in the
             sodium disposition activity is the processing of 87,000 gallons of EBR
             II primary sodium, 17,000 gallons of EBR II secondary sodium, and
             77,000 gallons of sodium from the Fermi-I reactor. Several western
             European countries dispose of their sodium into the sea because of the
             difficulty of processing this material. Management did not consider this
             approach to be environmentally acceptable, and therefore initiated a
             technology development activity. The processing of radioactive
             metallic sodium for land disposal as sodium hydroxide is a "first-of-a-
             kind" technology development and engineering effort and is clearly an
             R&D activity rather than a routine project activity. This R&D has
             proven to be complex, with an initial methodology abandoned in favor
             of a second. Because this effort began with the first principles of
             chemistry, developed the treatment process and engineered the
             equipment to apply the chemistry on a production scale for the first
             time, Nuclear Energy appropriately managed this effort as an R&D
             activity.




Page 9                                         Recommendations and Comments
          Since the closure activities have now moved from an R&D phase to a
          project phase, management of the activity has also changed. The report
          should reflect that Nuclear Energy has made significant changes in the
          management of this project. The report does not convey that
          management has taken many appropriate actions as evidenced by the
          successes achieved. This includes completing the removal of fuel from
          the EBR II reactor ahead of schedule and under budget. With the
          sodium treatment development work now completed management's FY
          2000 program guidance directs Argonne West to implement project
          management tools consistent with those recommended in the audit
          report.

          The audit report states that "Nuclear Energy has little assurance that the
          work performed, and the costs incurred to date by Argonne West will
          achieve the timely and efficient closure of EBR II." Management
          disagrees with this statement. Implementing the types of cost tracking
          tools discussed does not necessarily provide a greater level of assurance
          of effective expenditure of costs for work performed for research and
          development activities. The sodium processing activity had too many
          technical development hurdles to lend itself to accurate estimates of
          schedule, cost, and budgeted work. Therefore, these activities were not
          conducive to traditional project management controls. Management
          believes that it obtained assurance of efficient and timely closure
          through its validation of the EBR II Closure Plan approved in
          December 1998.

          Management agrees with the Office of Inspector General position on
          the imposition of additional quality assurance (QA). The difficulties
          Argonne-West encountered in sodium processing caused a two month
          delay in the project that could have been mitigated through additional
          process testing. Management attributes this error principally to
          incomplete knowledge of the phase diagram of sodium properties.
          Additional QA testing of the processed sodium would have revealed
          this deficiency in the basic scientific assumptions.

          Management agrees that the report is accurate in that Argonne West has
          been accumulating costs by organization rather than by activity, but
          they have provided Nuclear Energy cost data by activity when
          requested. Management agrees that costs should be reported by
          activity, and requested in the FY 2000 program guidance that this be
          implemented. Additionally, management agrees that program guidance
          has provided a single funding level, but the report does not convey that
          Nuclear Energy has increased the amount of detail provided in its
          program guidance to Argonne West over the past two years.

Page 10                                     Recommendations and Comments
AUDITOR COMMENTS   Management's comments are responsive to the recommendations.
                   Management indicated that they would develop an action plan by the
                   mid-July 2000, that would address the recommendations in the report.
                   Although management has taken some positive steps within the last two
                   years to begin correcting many of the deficiencies noted in the report,
                   our report focused on the Department's efforts since the inception of the
                   closure project. Since there are actions the Department needs to take to
                   satisfy the recommendations, a formal action plan is still needed to
                   assist management in controlling and tracking the activities necessary to
                   close EBR II "as soon as possible."

                   Management's disagreement stems from the fact that its philosophy is to
                   manage EBR II closure activities as it has managed all other activities
                   at the site – as an R&D activity. Traditionally, activities at the Argonne
                   West site focused on R&D programs in the areas such as nuclear safety
                   and decommissioning and decontamination technologies. However,
                   management should have realized that the EBR II closure activities
                   were not in the same "mold" as past Argonne West activities. From the
                   beginning, the EBR II closure activities should have been managed as a
                   project using approved baselines, work breakdown structures, and a
                   baseline change control process. Additionally, management should
                   have established budgeted costs for these activities and prepared cost
                   variance reports to evaluate their progress. All the activities necessary
                   to close EBR II should have been subjected to these proven techniques
                   for successfully managing Department projects.

                   We recognize that implementing a cost tracking system does not ensure
                   the effective expenditure of costs; however, the implementation of a
                   cost tracking system does provide management with a necessary tool
                   for evaluating actual verses budgeted costs for a project. Additionally,
                   cost information is vital in estimating whether project costs are in line
                   with scheduled milestones for a project. Management stated that they
                   obtained assurance of efficient and timely closure of EBR II through the
                   validation and approval of the December 1998 EBR II Closure Plan.
                   However, the approval on this plan occurred approximately 46 months
                   after Congress' direction to close EBR II. Therefore, management
                   cannot determine with any degree of certainty that the level of effort
                   and costs spent over the first 46 months of this project were appropriate
                   to ensure the expeditious closure of the EBR II.




Page 11                                              Recommendations and Comments
APPENDIX

SCOPE         The audit was performed from March 20 to June 2, 2000, at Idaho Falls,
              Idaho; Argonne, Illinois; and Department Headquarters. We reviewed
              EBR II closure activities performed from October 1994 to March 2000.


METHODOLOGY   To accomplish the audit objective, we:

              •   Reviewed applicable Department Orders, laws and regulations;

              •   Interviewed personnel at Headquarters, Chicago Operations Office,
                  Argonne Area Office-West, and Argonne National Laboratory; and

              •   Reviewed EBR II Termination Plans, Project Management Plans,
                  Nuclear Energy Program Guidance, Presidential Performance
                  Agreements, Nuclear Energy Program Evaluations of activities at
                  Argonne West, and other applicable documentation.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Accordingly, we
              assessed the internal controls over the closure activities of the EBR II at
              Argonne West. Because our review was limited, it would not
              necessarily have disclosed all internal control deficiencies that may
              have existed at the time of the audit. We did not extensively rely on
              computer-generated data.

              We held an exit conference with the Office of Nuclear Energy, Science
              and Technology on June 14, 2000.




Page 12                                                     Scope and Methodology
                                                                             IG Report No. : DOE/IG-0474

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
